IN THE
SUPREME COURT OF THE UNITED STATES
PETITION OF CERTIORARI

. RAMON WALL,
Petitioner
SUPREME COURT NUMBER:
V.

MELISSA A. HAINSWORTH, Superintendent,
S.C.I. Laurel Highlands, et al • /
Respondents

PROOF OF SERVICE

I, Ramon Wall, Pro-Se Petitioner, do swear or declare that on this date, as
required by Supreme Court Rule 29, that I have served the enclosed MOTION- TO
PROCEED IN FORMA PAUPERIS and PETITION FOR WRIT OF CERTIORARI on each party to
the above proceeding or that party1s counsel, and on every other person required
to be served, by depositing an envelope containing the above documents in the
United .States Mail Box, maintained in this institution, properly addressed to
each party, with Firtst-Class prepaid postage, or by delivery to a third party
commercial carrier for delivery within three (3) calender days.
The Names and Addresses of those served are as follows:
Melissa R. Hainsworth, Superintendent, SCI-Laurel Highlands, 5706 Glades Pike,
P.0. Box 631, Somerset PA 15501-0631. [814] 445-6501.
Genece Brinkley and Dennis P. Cohen, Judges, Philadelphia County Common Pleas
Court, Philadelphia County Court House, 1400 John F. Kennedy Boulevard,
Philadelphia PA 19107. [215] 686-1776.
A.D.A. Max C. Kaufman, Esquire, Philadelphia County Office Of District Attorney,
3 South Penn Square, Philadelphia PA 19107-3499. [215] 686-8000.

Page 1

/

Proof Of Service: Page 2

John P. Cotter/ Esquire/ Attorney At Law/ 2541 South Broad Street/ Philadelphia
PA 19148. [215] 336-0343.
Geoffrey M. Kilroy, Esquire, Defender Association Of Philadelphia, 1441 Samson
Street, Philadelphia PA 19102. [215] 568-3190.
Sharon R. Meisler, Esquire, The Law Office Of Susan F. Burt, 1700 Market Street
Suite 1005, Philadelphia PA 19103. [215] 287-8722.

I declare under penalty of perjury that the foregoing statements are true
and correct! This document was executed on,
, 2020.

//y f ^

Asi/m/yn.
Mr. Ramon Wall, Pro-Se, Petitioner,

